CERTIFICATE OF SERVICE
No. 20-384

Penny Nichols Corn; Twyla Jennings,
Petitioners,
i.

Mississippi Department of Public Safety;

ALBERT SANTA CRUZ, Individually and in his official

capacity as former Commissioner of the Mississippi

Department of Public Safety; MARSHALL FISHER,

In his official capacity as Commissioner of the

Mississippi Department of Public Safety,
Respondents.

I, Stephen M. Sheppard, do hereby certify that, on this twenty-eighth day of October,
2020, I caused one copy and an electronic copy of the Brief of Amici Curiae

in the foregoing case to be served by first class mail, postage prepaid, and by email, on
the following parties:

Shirley Payne Krissy Casey Nobile

Counsel of Record Counsel of Record

Horn & Payne, PLLC Office of the Attorney General
P.O. Box 2754 P.O. Box 220

Madison, MS 39130 Jackson, MS 39205-0220
hornpayne@gmail.com krissy.nobile@ago.ms.gov

(601) 853-6090

Stephen. — —

Counsel of Record

St. Mary's University School of Law
One Camino Santa Maria

San Antonio, TX 78229

(210) 601-0335 sheppard@stmarytx.edu

 
